Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




GAPS CONTINUE TO EXIST IN
NURSING HOME EMERGENCY
   PREPAREDNESS AND
    RESPONSE DURING
  DISASTERS: 2007–2010




                    Daniel R. Levinson
                     Inspector General

                       April 2012
                     OEI-06-09-00270
EXECUTIVE SUMMARY: GAPS CONTINUE TO EXIST IN NURSING HOME
EMERGENCY PREPAREDNESS AND RESPONSE DURING DISASTERS:
2007–2010, OEI-06-09-00270
WHY WE DID THIS STUDY
Federal regulations require that Medicare- and Medicaid-certified nursing homes have
written emergency plans and provide employees with emergency preparedness training.
In a 2006 report about nursing homes that experienced hurricanes, we found that
emergency plans lacked many provisions recommended by experts. In response, the
Centers for Medicare & Medicaid Services (CMS) issued guidance checklists for
emergency planning of health care facilities, long-term care (LTC) ombudsman
programs, and State survey agencies (SA). We conducted this study to assess emergency
preparedness and response of nursing homes that experienced more recent disasters.


HOW WE DID THIS STUDY
For this study, we analyzed national survey data to determine compliance with Federal
regulations. We also conducted site visits to 24 selected nursing homes that experienced
floods, hurricanes, and wildfires in 2007–2010. We interviewed nursing home
administrators and staff, local emergency managers, and representatives from State LTC
ombudsman programs and SAs. We also compared the emergency plans of each selected
nursing home to the CMS checklist for health care facilities.


WHAT WE FOUND
Most nursing homes nationwide met Federal requirements for written emergency plans
and preparedness training. However, we identified many of the same gaps in nursing
home preparedness and response that we found in our 2006 report. Emergency plans
lacked relevant information—including only about half of the tasks on the CMS
checklist. Nursing homes faced challenges with unreliable transportation contracts, lack
of collaboration with local emergency management, and residents who developed health
problems. LTC ombudsmen were often unable to support nursing home residents during
disasters; most had no contact with residents until after the disasters. SAs reported
making some efforts to assist nursing homes during disasters, mostly related to nursing
home compliance issues and ad hoc needs.


WHAT WE RECOMMEND
We made three recommendations to CMS and one recommendation to the Administration
on Aging (AoA). CMS agreed with our recommendations to revise Federal regulations to
include specific requirements for emergency plans and training, update the State
Operations Manual to provide detailed guidance for SAs on nursing home compliance
with emergency plans and training, and promote use of the checklists. AoA agreed with
our recommendation to develop model policies and procedures for LTC ombudsmen to
protect residents during and after disasters. Finally, in a memorandum report, we outline
guidance that CMS can consider when revising the checklist for health care facilities.
TABLE OF CONTENTS

Objectives ....................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................6
Findings......................................................................................................10
           In 2009–2010, 92 percent of nursing homes met Federal
           regulations for emergency plans and 72 percent for emergency
           training, slightly less than the percentages 5 years earlier .............10
           On average, selected nursing homes’ emergency plans included
           about half of the CMS-recommended checklist tasks, and none
           included all of them ....................................................................... 11
           Administrators from 17 of the 24 selected nursing homes
           reported substantial challenges in responding to disasters ............16
           LTC ombudsmen were often unable to support nursing home
           residents during disasters ...............................................................19
           State survey agencies completed tasks related to nursing home
           compliance and addressed ad hoc facility needs............................20
Recommendations ......................................................................................22
           Agency Comments and Office of Inspector General Response.....24
Appendixes ................................................................................................25
           A: Sample Selection ......................................................................25
           B: Nursing Home Deficiencies in Emergency Planning and
              Training ....................................................................................28
           C: Centers for Medicare & Medicaid Services-Recommended
              Checklist Tasks ........................................................................30
           D: Agency Comments ...................................................................34
Acknowledgments......................................................................................40
             OBJECTIVES
             1. To determine the nationwide extent of nursing home compliance with
                  Federal regulations for emergency preparedness.
             2. To determine the extent to which selected nursing homes’ emergency
                  plans included tasks recommended by the Centers for Medicare
                  & Medicaid Services (CMS) emergency preparedness checklist for
                  health care facilities.
             3. To describe the challenges experienced by selected nursing homes
                  during disasters in 2007–2010.
             4. To examine the role of selected long-term care (LTC) ombudsman
                  programs and State survey agencies (SA) during disasters in
                  2007–2010 and their use of the CMS emergency preparedness
                  checklists developed for each entity.

             BACKGROUND
             Nursing home residents and their families rely on facility administrators to
             plan and execute appropriate procedures during disasters. However, the
             numerous hurricanes during 2004 and 2005 prompted concern about
             nursing home emergency planning, disaster response, and coordination
             between nursing homes and State and local entities. In a 2006 Office of
             Inspector General (OIG) report, we found that, nationally, 94 percent of
             nursing homes met Federal regulations for emergency plans and
             80 percent met Federal regulations for emergency training in 2004–2005. 1
             However, in a sample of 20 nursing homes, we found that plans often
             lacked information suggested by experts; nursing home administrators and
             staff sometimes did not follow emergency plans during the hurricanes; and
             lack of collaboration between State and local emergency entities and
             nursing homes impeded emergency preparedness and management.
             After OIG issued the 2006 report, CMS issued guidance regarding the
             emergency planning of health care facilities, including nursing homes.
             This study expands upon the 2006 report to examine the use of CMS’s
             guidance by a sample of nursing homes that experienced floods,
             hurricanes, and wildfires during 2007–2010.
             Federal regulations for nursing home emergency preparedness require that
             Medicare- and Medicaid-certified nursing homes have “detailed written
             plans and procedures to meet all potential emergencies and disasters such


             1 OIG, Nursing Home Emergency Preparedness and Response During Recent Hurricanes, OEI-06-06-00020,
             August 2006.


OEI-06-09-00270        Gaps Continue To Exist in Nursing Home Preparedness                                        1
             as fire, severe weather, and missing residents.” Additionally, Federal
             regulations state that facilities must “train all employees in emergency
             procedures when they begin to work in the facility, periodically review the
             procedures with existing staff, and carry out unannounced staff drills using
             those procedures.” 2 According to Federal regulations, certified nursing
             homes must comply with the Life Safety Code (LSC), which requires that
             nursing homes have “written copies of a plan for the protection of all
             persons in the event of fire, for their evacuation to areas of refuge, and for
             their evacuation from the building;” and that fire drills be “conducted
             quarterly on each shift.” 3 In December 2010, CMS issued an advanced
             notice of proposed rulemaking to establish national emergency
             preparedness requirements for Medicare and Medicaid providers and
             suppliers. 4 As of March 2012, CMS had not published the proposed rule
             for comment.
             Verification of Nursing Home Compliance With Federal
             Regulations
             The Omnibus Budget Reconciliation Act of 1987 established a survey and
             certification process for CMS and States to verify that Medicare- and
             Medicaid-certified nursing homes comply with Federal requirements. 5
             CMS is responsible for enforcing these requirements. It enters into
             agreements with SAs to survey each nursing home at least once every
             15 months to certify compliance with Federal requirements, including
             those for emergency preparedness. 6 CMS provides guidance to surveyors
             through the State Operations Manual (SOM), which specifies how
             surveyors determine compliance. When surveyors identify noncompliance
             with Federal requirements, CMS requires nursing homes to submit plans
             of correction and to correct the problems. If nursing homes do not correct
             the problems, CMS may take enforcement actions, including termination
             of the nursing homes’ participation in Medicare and Medicaid. 7




             2 42 CFR § 483.75(m).
             3 42 CFR § 483.70(a)(i) states that the facility must meet the applicable provisions of the 2000 edition of the

             Life Safety Code of the National Fire Protection Association (NFPA), which is incorporated in the regulation by
             reference. See NFPA 101 Life Safety Code, 2000 edition, §§ 18.7.1.1–2 and 19.7.1.1–2. Accessed at
             http://www.nfpa.org on May 18, 2011.
             4 Department of Health and Human Services (HHS), Unified Regulatory Agenda (Dec. 20, 2010). Emergency
             Preparedness Requirements for Medicare Participating Providers and Suppliers (CMS-3178-P). Accessed at
             http://www.regulations.gov on April 5, 2011.
             5 Omnibus Budget Reconciliation Act of 1987, P.L. 100-203, §§ 4202 and 4212, Social Security Act, §§

             1819(g) and 1919(g), 42 U.S.C. §§ 1395i–3 and 1396r.
             6 42 CFR §§ 488.308(a) and 488.330(a)(1)(i).
             7 42 CFR §§ 488.402(d), 488.408, and 488.456.



OEI-06-09-00270          Gaps Continue To Exist in Nursing Home Preparedness                                                   2
             Standard survey. The standard survey includes two assessments of
             emergency preparedness: emergency planning and emergency training. 8
             To determine whether nursing homes meet Federal regulations for
             emergency planning, surveyors are instructed to review emergency plans. 9
             Federal regulations state that nursing home emergency plans must include
             procedures to meet all potential emergencies, such as fires, severe weather,
             and missing residents. 10 The regulations do not specify required content
             for emergency plans; the SOM indicates only that emergency plans must
             include plans relevant to natural or manmade disasters and include
             procedures for finding a missing resident. 11 If surveyors find that
             emergency plans are deficient, they can cite nursing homes with a
             deficiency of Tag F517. 12 To determine whether a nursing home meets
             Federal regulations for training in emergency procedures, surveyors are
             instructed to question the nurse in charge and two nursing home staff
             members (e.g., nurse aide, housekeeper, maintenance person) about their
             facility’s emergency plan. 13 If the nurse in charge or other staff members
             are unable to answer the questions correctly, the surveyors can cite the
             nursing home with a deficiency of Tag F518. 14
             LSC survey. SAs are also responsible for LSC surveys, which should be
             documented no later than 60 days after conclusion of the standard
             surveys. 15 Surveyors must complete additional specialized training to
             conduct the LSC survey, and special consultants, such as fire protection
             engineers or fire alarm technicians, may participate on the survey team. 16
             In some cases, SAs may enter into subagreements or contracts with State
             fire authorities to assess LSC compliance. 17
             The LSC requires facilities to comply with a set of fire protection
             provisions designed to provide safety from fire, smoke, and panic. 18 The
             LSC survey includes two assessments for fire protection: whether the
             facility has a written plan for the protection and evacuation of all patients
             in an emergency and whether the facility conducts fire drills. If surveyors


             8 CMS, SOM, Pub. No. 100-07, App. PP, Guidance to Surveyors for Long-Term Care Facilities, Tags F517 and

             F518.
             9 Ibid.
             10 42 CFR § 483.75(m).
             11 CMS, SOM, App. PP, Tag F323.
             12 CMS, SOM, ch. 2, § 2728A.
             13 CMS, SOM, App. PP, Tags 517 and F518.
             14 CMS, SOM, ch. 2, § 2728A.
             15 CMS, SOM, ch. 2, § 2472C.
             16 CMS, SOM, App. I, Survey Procedures and Interpretive Guidelines for Life Safety Code Surveys, p. 1.
             17 CMS, SOM, ch. 2, § 2472B.
             18 CMS, SOM, ch. 2, § 2470A.



OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                           3
             find that emergency fire plans are deficient, they can cite the nursing
             homes with a deficiency of Tag K48. Surveyors should also evaluate
             whether nursing homes hold fire drills at unexpected times under varying
             conditions and whether nursing home staff members are familiar with
             emergency procedures. If fire drill records or staff responses during
             interviews are insufficient, surveyors can cite the nursing homes with a
             deficiency of Tag K50. 19
             State LTC Ombudsman Programs
             Federal law requires that each State establish a State LTC ombudsman
             program, funded through the Administration on Aging (AoA), to advocate
             for residents in long-term care facilities, such as nursing homes. 20 The
             State LTC ombudsman is responsible for identifying, investigating, and
             resolving complaints made by or on behalf of nursing home residents
             relating to action, inaction, or decisions that may adversely affect the
             health, safety, welfare, or rights of LTC residents. 21 The State LTC
             ombudsman also monitors the development and implementation of
             Federal, State, and local laws, regulations, and other governmental
             policies and actions that pertain to the health safety, welfare, and rights of
             LTC residents. 22
             Federal law does not explicitly state how LTC ombudsman programs
             should participate in nursing home emergency planning, nor does it
             require that ombudsman programs take specific action during disasters.
             To provide a resource for LTC ombudsmen, AoA partially funded a report
             published in 2000 that describes possible LTC ombudsmen actions during
             nursing home closings and natural disasters. The report is a collection of
             experiences and perspectives of LTC ombudsmen during disasters,
             describing tasks such as helping to arrange transportation and to find
             facilities with available beds. 23




             19 CMS, SOM, App. I, Survey Procedures and Interpretive Guidelines for Life Safety Code Surveys, Task 5.
             NFPA, NFPA 101 Life Safety Code, 2000 edition, §§ 18.7.1.1–2 and 19.7.1.1–2. Accessed at
             http://www.nfpa.org on May 18, 2011. Form CMS-2786R (06/2007), “Fire Safety Survey Report 2000
             Code–Health Care.”
             20 42 U.S.C. § 3058g(a)(1). AoA, Investments in Change: Enhancing the Health and Independence of Older
             Adults, 2008 Annual Report, p. 19.
             21 42 U.S.C. § 3058g(a)(3)(A).
             22 42 U.S.C. § 3058g(a)(3)(G).
             23 S. Murtiashaw, The Role of Long-Term Care Ombudsman in Nursing Home Closures and Natural Disaster,

             2000, National Long-Term Care Ombudsman Resource Center, pp. 42–43. Accessed at
             http://www.ltcombudsman.org on April 23, 2010.


OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                             4
             CMS Emergency Preparedness Checklists
             In 2007, CMS published three emergency preparedness checklists as
             “recommended tools” for health care facilities, SAs, and State LTC
             ombudsman programs:
             •    Health care facilities checklist. This checklist includes 70 tasks, which
                  CMS grouped into 23 task categories. Health care facilities, including
                  nursing homes, could implement these tasks to ensure that they have a
                  comprehensive emergency plan to respond to any disaster. 24 The
                  checklist provides guidance for developing emergency plans; ensuring
                  adequate supplies of food and water; identifying evacuation routes;
                  and transporting patients, critical supplies, and equipment. It also
                  recommends that facilities collaborate with local emergency
                  management agencies, suppliers, and providers identified as part of a
                  community emergency plan to care for evacuees.
             •    State LTC ombudsman program checklist. This checklist is a resource
                  for State LTC ombudsmen and includes such tasks as ensuring that all
                  regional and local ombudsmen are familiar with emergency planning
                  pertinent to LTC facilities. 25
             •    State SA checklist. This checklist encourages collaboration between
                  SAs and emergency management agencies and provides guidance on
                  the essential functions of SAs during disasters. 26
             Disasters in 2007–2010
             From 2007 to 2010, several disasters substantially affected at least
             210 nursing homes in 7 States, forcing residents to evacuate or shelter in
             place in response to floods, hurricanes, and wildfires. 27
             Floods. In March 2009, flooding of the Red River forced the evacuation
             of six nursing homes in North Dakota. Across the river in Minnesota, one
             nursing home was evacuated and the residents of another sheltered in
             place. 28 In May 2010, widespread flooding along the Mississippi and
             Cumberland Rivers in Tennessee forced the evacuation of at least two
             nursing homes. Another nursing home evacuated some of its residents,
             and the residents of four others sheltered in place.


             24 CMS, Survey & Certification: Emergency Preparedness Checklist Recommended Tool for Effective Health

             Care Facility Planning. Accessed at http://www.cms.gov on February 5, 2010.
             25 CMS, Survey & Certification: Emergency Planning Checklist Recommended Tool For Persons in Long-
             Term Care Facilities & Their Family Members, Friends, Personal Caregivers, Guardians & Long-Term Care
             Ombudsman (see Part II). Accessed at http://www.com.gov on February 5, 2010.
             26 CMS, Survey & Certification: Emergency Preparedness Checklist Recommended Tool for Effective State

             Agency Planning. Accessed at http://www.cms.gov on February 5, 2010.
             27 This number is limited to nursing homes affected by the disasters in our study.
             28 This area experienced flooding again in March 2010, although no nursing homes were evacuated.



OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                          5
             Hurricanes. Within a span of 12 days in September 2008, Category 2
             Hurricanes Gustav and Ike made landfall in Cocodrie, Louisiana, and
             Galveston Island, Texas. Hurricane Gustav forced the evacuation of
             92 nursing homes in the coastal parishes of Louisiana. 29 Hurricane Ike,
             the third-costliest hurricane ever to hit the United States, devastated
             Galveston Island and led to a mass evacuation of the Texas gulf coast,
             including 84 nursing homes. 30 In September 2010, Category 2 Hurricane
             Earl threatened the Outer Banks of North Carolina, forcing the evacuation
             of three nursing homes; the residents of three others sheltered in place.
             Wildfires. In October 2007, wildfires threatened heavily populated areas
             near San Diego, California, forcing the evacuation of five nursing homes;
             the residents of three others sheltered in place. In May 2009, wildfires
             near Santa Barbara, California, forced the evacuation of one nursing
             home, and the residents of four others sheltered in place.

             METHODOLOGY
             Scope
             For this evaluation, we analyzed national CMS survey data to determine
             nursing home compliance with Federal regulations for emergency
             preparedness planning and training in 2009–2010. We compared
             emergency plans for 24 selected nursing homes to the CMS emergency
             preparedness checklists and to Federal regulations for emergency
             preparedness planning. We also interviewed nursing home staff;
             community authorities; State, regional, and local LTC ombudsmen; and
             SA staff to collect information about their experiences during disasters that
             occurred during 2007–2010.
             Sample
             We purposively selected 24 Medicare- and Medicaid-certified nursing
             homes whose residents sheltered in place or were evacuated in response to
             floods, hurricanes, or wildfires during 2007–2010. (See Appendix A for
             details about sample selection, including communities and selected
             nursing home characteristics.) The 24 nursing homes are within
             16 communities in 13 counties across 7 States. They received services
             from 11 local and regional LTC ombudsman programs (see Table 1).




             29 According to the Saffir-Simpson Hurricane Wind Scale, a Category 2 hurricane has sustained winds of
             96–110 miles per hour. Winds of this intensity are extremely dangerous and cause extensive damage.
             Accessed at http://www.nhc.noaa.gov on August 30, 2011.
             30 Federal Emergency Management Agency, Hurricane Ike Impact Report, December 8, 2008.



OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                           6
             Table 1: Entities Represented in Selected Sample
                  Entity                                                                                               Number

                  Local and Regional Entities

                     Nursing homes                                                                                           24

                     Communities                                                                                             16

                     Counties                                                                                                13

                     Local and regional LTC ombudsman program offices                                                        11

                  State Entities

                     State LTC ombudsman programs                                                                              7

                     SAs                                                                                                       7

                           Source: OIG analysis of 24 selected nursing homes affected by disasters during 2007–2010.


             Data Sources and Data Collection
             CMS survey data. We used CMS Online Survey, Certification, and
             Reporting (OSCAR) data to determine national nursing home compliance
             rates with Federal regulations regarding emergency planning and training
             in 2009 and 2010. 31 We obtained the data in March 2011.
             Documentation. We obtained current (2010) emergency plans and
             supporting documents from each of the 24 selected nursing homes. 32 We
             also collected community emergency plans to determine the extent to
             which nursing homes coordinated their plans with the community plans.
             Additionally, we collected materials that regional and local LTC
             ombudsmen used to guide their response to nursing home emergencies.
             We also collected emergency plans and supporting documents from State
             LTC ombudsman programs.
             Onsite interviews. We conducted structured onsite interviews with nursing
             home administrators, directors of nursing, and other staff involved in the
             disaster response for the 24 selected nursing homes. We asked
             respondents about their emergency plans and staff training. We also asked
             about their decisions to evacuate or shelter in place and their experiences
             before, during, and after the disaster.
             We also conducted structured onsite interviews with local emergency
             management officials and LTC ombudsman program staff and volunteers
             in each of the 16 communities where the selected nursing homes are
             located. (See Table A-3 in Appendix A for the number of interview

             31 National statistics include nursing homes from all 50 States, the District of Columbia, Guam, Puerto Rico,
             and the Virgin Islands.
             32 Supporting documents included, but were not limited to, transportation agreements, training for

             transportation vendors and volunteers, records of staff training, exercises and drills, after-action reports, and the
             most recent internal review of the emergency plan.


OEI-06-09-00270              Gaps Continue To Exist in Nursing Home Preparedness                                                   7
             respondents affiliated with each type of entity.) We asked respondents
             about their community emergency planning and response, evacuation
             orders, local requirements for nursing homes, assistance provided to
             nursing homes, implementation of plans during the specified disaster, and
             reflections about selected nursing homes’ disaster responses. We
             conducted all onsite interviews between July and October 2010.
             Telephone interviews. We conducted structured telephone interviews with
             officials from SAs and State LTC ombudsman programs for each of the
             seven States where the selected nursing homes are located. We asked
             respondents about their roles and responsibilities for emergency planning,
             actions taken during the specified disaster, the nature of evacuation orders,
             State nursing home requirements, and assistance provided to nursing
             homes for development and execution of plans. We also asked SAs about
             training provided to surveyors to prepare them for reviews of nursing
             home emergency plans and training documents. Additionally, we asked
             whether they used the CMS checklists as tools for emergency planning.
             We conducted all telephone interviews between July and November 2010.
             Data Analysis
             Quantitative analysis. To determine emergency preparedness compliance
             rates in 2009–2010, we used standard and LSC survey data to calculate the
             number of deficiencies issued for Tags F517, F518, K48, and K50. We
             then compared the 2009–2010 compliance rates with rates found in
             2004–2005. Whenever possible, we also quantified interview and
             documentation data.
             Qualitative analysis. To determine the extent to which selected nursing
             homes’ emergency plans contained tasks recommended by the CMS
             emergency preparedness checklists, we compared the plans with the
             70 tasks listed in the CMS checklist for health care facilities. For each
             CMS checklist task, we determined whether the nursing home emergency
             plan contained provisions that matched, partially matched, or did not
             match that CMS task. Finally, we reviewed the emergency plans to
             determine whether they included procedures for fire, severe storms, and
             missing residents, as stated in Federal regulations. 33 For example, if a
             plan did not include procedures for responding to fires, we categorized it
             as a nonmatch for emergency planning for fires.
             To examine the challenges experienced by selected nursing homes during
             disasters in 2007–2010, we analyzed transcripts from our interviews with
             nursing home administrators, staff, local emergency entities, LTC
             ombudsmen, and SA officials. Finally, to examine the roles of selected

             33 42 CFR § 483.75(m).



OEI-06-09-00270        Gaps Continue To Exist in Nursing Home Preparedness                8
             LTC ombudsman programs and SAs during disasters, we analyzed
             transcripts from our interviews with State, local, and regional ombudsmen
             and SA officials. In analyzing the interview data, we developed themes
             and selected examples to illustrate the respondents’ experiences.
             Limitations
             This study has two limitations. First, the purposive sample of 24 selected
             nursing homes is not representative of all nursing homes, nursing home
             emergency plans, or nursing home experiences during disasters. Second,
             during interviews we relied on respondents’ recollections of disasters.
             Although this limitation applies to all interviews conducted for the study,
             for 10 of the 24 selected nursing homes, interviews took place 2–3 years
             after the disasters.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness                   9
             FINDINGS
             In 2009–2010, 92 percent of nursing homes met
             Federal regulations for emergency plans and
             72 percent for emergency training, slightly less than
             the percentages 5 years earlier
             Of the 16,001 nursing homes surveyed nationwide during 2009 and 2010,
             most met Federal regulations. This is a slight decrease from the
             compliance rates for 2004 and 2005 reported 5 years earlier, when we
             found that 94 percent of nursing homes met Federal regulations for
             planning and 80 percent met regulations for training. 34 Although most
             nursing homes met Federal regulations for planning, 28 percent were
             found deficient for inadequately training staff to respond to disasters (see
             Table 2). Additionally, LSC surveyors cited 20 percent more nursing
             homes for deficiencies in emergency training than surveyors conducting
             standard surveys. Insufficient planning may be more prevalent than these
             results indicate, however. According to SA officials we interviewed,
             surveyors primarily focus on resident care issues during standard surveys,
             and therefore may not review emergency plans and training records as
             closely as LSC surveyors might. Officials from five of the seven States in
             our review reported that they did not train surveyors specifically on
             assessment of nursing home emergency plans. (See Appendix B for a list
             of nursing home emergency preparedness planning and training
             deficiencies nationally and by State.)
             Table 2: Nursing Homes Cited for Deficiencies in Emergency Planning and
             Training: National (2009–2010)
                                                                                                 Facilities
              Deficiencies                                                                                          Percentage
                                                                                                (n=16,001)

              Planning Deficiencies
                  Standard survey (F517)                                                                 403                  3
                  Life Safety Code (K48)                                                                 861                  5
                     Total*                                                                            1,214                  8
              Training Deficiencies
                  Standard survey (F518)                                                                 860                  5
                  Life Safety Code (K50)                                                               3,936                  25
                     Total*                                                                            4,466                  28
                  Source: OIG analysis of OSCAR data for 2009–2010.
                   *The totals for planning and training deficiencies are not the sums of the standard survey and LSC
                  deficiencies because some facilities had one of each type of deficiency, resulting in some overlap in the
                  categories.



             34 OIG, Nursing Home Emergency Preparedness and Response During Recent Hurricanes,

             OEI-06-06-00020, August 2006.


OEI-06-09-00270           Gaps Continue To Exist in Nursing Home Preparedness                                                 10
             Among the 24 selected nursing homes, surveyors cited only 3 for planning
             or training deficiencies during their most recent surveys. For example,
             surveyors cited one nursing home for a planning deficiency resulting from
             insufficient stockpiles of food and a training deficiency for failing to train
             staff to extinguish a kitchen fire. The remaining two homes were found
             deficient for insufficient documentation of emergency training. As noted,
             Federal regulations state that nursing home emergency plans must include
             procedures to meet all potential emergencies, such as fires, severe weather,
             and missing residents. 35 We found that emergency plans for 12 of the
             24 selected nursing homes lacked procedures for finding missing residents
             and that 1 of these plans also lacked procedures for responding to fires.
             During their most recent standard and LSC surveys, none of these
             12 nursing homes were found deficient for emergency planning. 36
             Training for surveyors in five of seven States did not include
             instructions for evaluating emergency plans
             In these five States, SA officials reported that their training for surveyors
             who conduct standard surveys did not include instructions on how to
             evaluate an emergency plan, details for assessing compliance, or training
             specific to planning for disasters in their States. Officials from the
             remaining two States reported that their surveyor training included
             instructions for assessing nursing home emergency plan compliance with
             Federal regulations. These instructions included methods for checking
             generators and water supplies and for identifying items typically missing
             from a plan, such as procedures for sheltering in place and planning
             evacuation routes.

             On average, selected nursing homes’ emergency
             plans included about half of the CMS-recommended
             checklist tasks, and none included all of them
             Most nursing home administrators did not use the recommended CMS
             emergency preparedness checklist for health care facilities in developing
             their emergency plans; and the plans lacked many checklist tasks.
             Administrators from only 13 of the 24 nursing homes were aware of the
             checklist and only 7 of the 13 reported using it in developing their plans.
             Administrators who did not use the checklist explained that they used
             guidance from other sources, such as their corporate offices or local
             emergency managers. The number of CMS checklist tasks included in the
             24 selected nursing homes’ plans ranged from 19 to 57 out of 70 tasks (see


             35 42 CFR § 483.75(m)(1).
             36 Emergency plans submitted to OIG by nursing homes may not have been the same plans reviewed by

             surveyors during the most recent nursing home certification survey.


OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                      11
             Table 3). See Appendix C for a full list of CMS checklist tasks included in
             selected nursing homes’ emergency plans.
             Table 3: CMS-Recommended Tasks in Selected Nursing
             Homes’ Emergency Plans

                  Number of CMS-Recommended Tasks                          Nursing Home Plans
                  (n=70)                                                    With Tasks* (n=24)

                  60–70                                                                           0

                  50–59                                                                           3

                  40–49                                                                           5

                  30–39                                                                           9

                  20–29                                                                           6

                  10–19                                                                           1

                  10–9                                                                            0

                     Total                                                                        24
                    Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                    *We credited nursing home emergency plans with containing recommended tasks
                    when they matched or partially matched the tasks.


             Emergency plans from selected nursing homes lacked
             checklist tasks within six areas of concern
             In reviewing selected nursing homes’ emergency plans, we identified six
             areas of particular concern. These areas represent tasks that nursing
             homes often did not include in their plans but could affect residents during
             disasters: staffing; resident care; resident identification, information, and
             tracking; sheltering in place; evacuation; and communication and
             collaboration.
             Table 4: CMS-Recommended Staffing Tasks in Selected
             Nursing Homes’ Emergency Plans
                                                                                         Nursing
                                                                                     Home Plans
              Task
                                                                                    Without Task
                                                                                          (n=24)*

                  Staffing backup plan                                                            22

                  Evacuate staff’s family with the facility                                       19

                  Staffing requirements                                                           19

                  Shelter staff’s family at the facility                                          14

                  Ensure that staff accompany residents during evacuation                         12

                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task
                   categories.




OEI-06-09-00270              Gaps Continue To Exist in Nursing Home Preparedness                       12
             Staffing tasks. Ten of the twenty-four selected nursing homes’ plans did
             not include any recommended tasks for ensuring sufficient staffing levels
             to provide continuous care for residents during disasters, potentially
             leading to delays in meeting medical and other physical needs.
             Additionally, 22 of 24 plans did not include backup plans for staff unable
             to report to work during the disaster and 19 of 24 plans lacked information
             regarding staffing requirements (see Table 4).
             Resident-care tasks. Eleven of the twenty-four selected nursing homes’
             plans did not include any recommended resident-care tasks. For example,
             23 of 24 plans did not describe how to handle resident illness or death
             during an evacuation or how to provide disaster counseling to residents.
             As another example, 15 of 24 plans did not contain information regarding
             specific characteristics and needs of residents (see Table 5).
             Table 5: CMS-Recommended Resident-Care Tasks in
             Selected Nursing Homes’ Emergency Plans
                                                                                  Nursing Home
                  Task                                                            Plans Without
                                                                                   Task (n=24)*
                  Procedures for resident illness or death en route to
                                                                                                 23
                  evacuation site
                  Mental health and grief counselors at evacuation site                          23

                  Resident care during evacuation                                                17

                  Specific characteristics and needs of residents                                15
                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task
                   categories.


             The lack of detailed information about resident-specific needs (e.g.,
             nasogastric or enteral feeding tubes, ventilator, and oxygen) and
             characteristics (e.g., Alzheimer’s and dementia) could pose a threat to the
             well-being of residents by failing to signal the need for special
             transportation and necessary medical care and equipment.
             Resident identification, information, and tracking tasks. Five of the
             twenty-four selected nursing homes’ plans did not include any tasks
             related to identifying residents, transferring their information, or tracking
             them. For example, 7 of the 24 plans did not specify any methods for
             identifying residents (e.g., wristband or nametag), and 11 plans did not
             specify what personal information must accompany residents during an
             evacuation (see Table 6).




OEI-06-09-00270            Gaps Continue To Exist in Nursing Home Preparedness                        13
             Table 6: CMS-Recommended Identification, Information,
             and Tracking Tasks in Selected Nursing Homes’
             Emergency Plans
                                                                                  Nursing Home
              Task                                                                Plans Without
                                                                                   Task (n=24)*
                  Method used to identify residents during evacuation                         7
                  Transfer the following information with each resident:
                  Name and contact information for next of kin/power of                          19
                  attorney
                  Date of birth, diagnosis                                                       17
                  Current drug/prescription and diet regimens                                    15
                  Name                                                                           11
                  Method to account for individuals during and after                             10
                  evacuation
                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task
                   categories.


             The lack of information about residents’ prescriptions (e.g., for treatment
             of diabetes) could pose a threat to residents’ health if essential medications
             are not administered on time to those with chronic conditions.
             Sheltering-in-place tasks. Twelve of the twenty-four selected nursing
             homes’ plans did not include any of the recommended tasks for sheltering
             in place. For example, none of the 24 plans specified the amount of water
             needed to ensure sufficient supply for a minimum of 7 days (see Table 7).
             Table 7: CMS-Recommended Sheltering-in-Place Tasks in
             Selected Nursing Homes’ Emergency Plans
                                                                                  Nursing Home
              Task                                                                Plans Without
                                                                                   Task (n=24)*
                  To care for residents for a minimum 7 days:

                    Adequate supply of potable water                                             24

                    Extra medical supplies and equipment                                         22

                    Generator fuel supply                                                        19

                    Extra pharmacy stocks of common medications                                  19

                    Amounts and types of food in supply                                          17
                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task
                   categories.


             Evacuation tasks. Eleven of the twenty-four selected nursing homes’
             plans did not include any recommended tasks regarding evacuation
             procedures. For example, 22 of 24 plans did not describe how the nursing
             home would transport and protect medical records and medications during
             an evacuation (see Table 8).




OEI-06-09-00270            Gaps Continue To Exist in Nursing Home Preparedness                        14
             Table 8: CMS-Recommended Evacuation Tasks in Selected Nursing
             Homes’ Emergency Plans
                                                                                                  Nursing Home
                  Task                                                                            Plans Without
                                                                                                   Task (n=24)*
                  Transportation and logistical support of:

                    Adequate food supply                                                                     24

                    Water (including amount)                                                                 24

                    Critical supplies and equipment                                                          19

                  Transportation and protection of medications under registered nurse                        22

                  Transportation and protection of:

                    Medical records                                                                          22

                    Wheelchairs and assistive devices                                                        19

                  Evacuation routes:

                    Evacuation routes only                                                                   15

                    Evacuation routes and alternative routes                                                 23
                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task categories.


             Communication and collaboration tasks. Twenty-two of the twenty-four
             selected nursing homes’ plans lacked tasks for communicating with local
             LTC ombudsmen, residents, and proper authorities during and after a
             disaster (see Table 9).
             Table 9: CMS-Recommended Communication and Collaboration
             Tasks in Selected Nursing Homes’ Emergency Plans
                                                                                                  Nursing Home
                  Task                                                                            Plans Without
                                                                                                   Task (n=24)*
                  Communication
                  Communicate with and/or notify:
                    Local LTC ombudsman program                                                              22
                    Residents                                                                                15
                    Staff                                                                                     8
                    Proper authorities                                                                        4
                    Resident families                                                                         4
                  Facility communication infrastructure in the event of telephone failure                     7
                  Collaboration
                  Collaborate with emergency managers to develop plan                                        16
                  Collaborate with emergency managers to determine whether to
                                                                                                             17
                  evacuate or shelter in place
                   Source: OIG analysis of 24 selected nursing homes’ emergency plans in 2010.
                   *Numbers may not sum to totals shown in Appendix C because of combined task categories.




OEI-06-09-00270             Gaps Continue To Exist in Nursing Home Preparedness                                   15
             Administrators from 17 of the 24 selected nursing
             homes reported substantial challenges in responding
             to disasters
             Administrators and staff from 17 of the 24 selected nursing homes
             reported facing substantial challenges in responding to disasters, whether
             they evacuated or sheltered residents in place. Of these 17 nursing homes,
             11 were evacuated and 6 sheltered residents in place. Challenges included
             difficulty following emergency plans as written, logistical problems
             related to transportation and communication, and negative effects of
             evacuation on resident health (see Table 10). Further, most nursing homes
             that experienced challenges reported that they had not collaborated with
             local emergency management agencies to prepare for disasters.
             Table 10: Nursing Home Challenges in Responding to Disasters

                                                                                                        Nursing Homes
                  Challenge                                                                         Reporting Challenge
                                                                                                                (n=17)*

                  Emergency Plan

                  Emergency plan as written:

                    Lacked detailed procedural information                                                                 9

                    Was not specific to disaster experienced                                                               5

                    Was missing information or contained inaccurate information                                            3

                  Staff did not consult plan                                                                               2

                    Total                                                                                                 12

                  Logistics

                  Unreliable transportation contracts and agreements                                                       5

                  Hospital not available to shelter high-acuity residents                                                  5

                  Nursing home resident dispersion                                                                         5

                  Nursing home residents moved more than once                                                              4

                  Inadequate tracking systems for residents and supplies                                                   4

                  Closed roads limited access to nursing home                                                              4

                  Technological problems with communication devices                                                        3

                    Total                                                                                                 13

                  Physical and Emotional Effects on Residents

                  Some residents experienced:

                    Negative effects of evacuation on physical health                                                      9

                    Stress, anxiety, fear, or emotional trauma                                                             9

                    Total                                                                                                 12
                    Source: OIG analysis of interviews with 24 selected nursing homes’ administrators and staff in 2010.
                    *Nursing homes reporting challenges do not sum to the totals because some reported more than one challenge.



OEI-06-09-00270             Gaps Continue To Exist in Nursing Home Preparedness                                            16
             Of the 17 nursing homes that reported challenges, 7 met with local
             emergency managers before the disaster to review the situation, establish
             benchmarks for evacuation, and formulate a response plan. However,
             most of the 17 nursing homes did not have local emergency managers
             review their emergency plans, and none participated in communitywide
             emergency preparedness exercises and drills before the disaster.
             Nursing home staff struggled to execute emergency plans
             According to administrators from 12 of the 17 nursing homes that reported
             challenges, their emergency plans did not contain accurate or detailed
             information on how to execute their plans and respond to disasters. For
             example, one administrator of a nursing home that was flooded reported
             that its emergency plan did not include procedures for responding to
             floods, although the nursing home was in a flood plain. Another
             administrator of a nursing home that was evacuated acknowledged that
             most planning focused on sheltering in place rather than evacuating. This
             administrator did not have prior agreements with host facilities and found
             that identifying them at the last minute was a formidable task.
             Administrators of two nursing homes reported that they did not consult
             their written emergency plans to prepare for evacuation. They reported
             piecing together transport by calling upon other nursing homes and local
             emergency entities to evacuate their residents.
             Nursing homes reported logistical problems related to
             transportation and communication
             Administrators from 13 of the 17 nursing homes reported a range of
             logistical problems related to evacuation and sheltering in place. The most
             common problems, each reported by five nursing homes, were that
             transportation contracts were not honored, hospitals declined to shelter
             high-acuity residents unless their medical conditions warranted admission
             under normal circumstances, and difficulty was experienced in tracking
             residents dispersed to host facilities. Regarding widespread dispersion,
             residents of 1 home were sent to 20 host facilities, making it difficult for
             staff familiar with the residents to monitor their status and provide care.
             Four nursing homes that were evacuated reported difficulty tracking
             residents and supplies, in some cases temporarily “losing” residents and
             having difficulty matching displaced residents to personal equipment, such
             as wheelchairs. Some logistical difficulties were the result of community
             disaster conditions; for example, administrators from four nursing homes
             (as well as LTC ombudsmen) reported that closed roads limited staff
             access and equipment delivery, and administrators from three nursing
             homes reported technical problems using cell phones and walkie-talkies.




OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness              17
             Nursing homes reported that some residents developed health
             problems, creating challenges in providing care
             Administrators from 12 of the 17 nursing homes reported that some
             residents experienced deteriorating health conditions, skin issues, falls that
             resulted in injury, or death. Administrators from seven of these nursing
             homes reported that some residents’ medical conditions deteriorated
             during evacuation, necessitating hospitalization either en route to or
             immediately after their arrival at host facilities. Administrators from four
             of these nursing homes also reported that an unspecified number of
             residents experienced skin issues, such as bedsores or tears, and
             administrators from two homes reported having a resident who fell,
             resulting in injury at a host facility. Finally, administrators from 9 of the
             17 nursing homes indicated that some residents experienced emotional
             trauma, such as confusion and anxiety, resulting in at least 1 instance of
             required sedation.
             Most nursing homes that reported challenges did not have
             local emergency managers review their plans, and none
             participated in communitywide emergency exercises and drills
             Of the 17 nursing homes that reported challenges in following their
             emergency plans, 12 were in communities in which local emergency
             management entities did not review and approve their plans. During
             interviews, emergency managers in these communities expressed
             willingness to review plans but noted that they did not have the authority
             to monitor or verify compliance with the plans. Moreover, the emergency
             entity reviewing the plan may not be the agency that responds to the
             nursing home during a disaster. For example, in one county that required
             emergency management review of nursing home plans, the county
             emergency manager reviewed and approved a plan, but the emergency
             manager of the fire department that responded to the nursing home’s
             request for assistance did not know of the home’s plan.
             Few nursing homes that reported challenges collaborated with local
             emergency managers before the disaster; only 4 of the 17 nursing homes
             reported meeting with them to prepare for specific disasters, 2 participated
             in regular communitywide preparedness meetings, and none participated
             in communitywide exercises and drills. 37




             37 Since the 2007 wildfires, nursing homes in San Diego County have participated in bed census drills as
             members of their county’s nursing home disaster preparedness and response task force. Skilled Nursing Facility
             Disaster Preparedness Task Force, The San Diego Model–A Skilled Nursing Disaster Preparedness and
             Response Plan, 2009. Accessed at http://www.cahfdownload.com/cahf/dpp/SDModel-Final-08-27-09.pdf on
             June 4, 2010.


OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                             18
             Six of the 17 nursing homes that experienced challenges were in
             communities in which local emergency managers stated that they perceive
             nursing homes as businesses and therefore responsible for management of
             their own disaster response. Emergency managers in these communities
             indicated they would assist nursing homes as a last resort, but that they
             had competing priorities for scarce resources. According to one
             emergency manager, a bus used to evacuate residents from a nursing home
             was originally to be used for indigent and homebound populations.

             LTC ombudsmen were often unable to support
             nursing home residents during disasters
             Local LTC ombudsmen reported that although they have no additional
             emergency-related tasks required by Federal regulation, they continue
             during emergencies to work to ensure resident welfare. State LTC
             ombudsman programs in four of the seven States had emergency plans to
             ensure continuity of service. Still, local LTC ombudsmen in all seven
             states were often unable to contact or visit residents of nursing homes
             affected by disasters, potentially affecting resident safety and welfare.
             Although some LTC ombudsmen visited residents of the
             24 selected nursing homes during the disasters, most had no
             contact with them until the disasters ended or residents
             returned to nursing homes
             Administrators from only 3 of the 24 selected nursing homes reported that
             their local LTC ombudsmen visited residents, either while residents were
             in host facilities or immediately upon their return to their nursing homes.
             Ombudsmen from 7 of the 11 local LTC programs reported that areawide
             evacuations, closed roads, and evacuations to distant host facilities
             affected access to residents. Ombudsmen from 10 of the 11 local LTC
             programs indicated that the disasters likely increased resident
             vulnerabilities. Ombudsmen said that after reentering facilities, residents
             often talked about difficulties such as emotional trauma and loss of
             privacy.
             Four of the seven State LTC ombudsman programs had
             emergency plans to ensure continuity of service to nursing
             home residents, but none reported using the CMS emergency
             preparedness checklist
             Four of the seven State LTC ombudsman programs had written emergency
             plans to ensure program continuity during disasters. Officials from three
             of these programs reported they were aware of the CMS emergency
             preparedness checklist for State LTC ombudsman programs, but none
             reported using it to develop plans. Five of the seven State LTC
             ombudsmen reported that they provided disaster-related information to

OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness              19
             regional and local LTC ombudsman programs, including one State LTC
             ombudsman who worked at the State operations command center during
             the disaster. Three State LTC ombudsmen indicated that they would like
             further clarification of their responsibilities before, during, and after
             disasters.

             State survey agencies completed tasks related to
             nursing home compliance and addressed ad hoc
             facility needs
             SA officials stated that the primary role of the SA was to enforce
             compliance with Federal and State regulations. However, agency officials
             often accepted additional responsibilities as needs arose, including
             tracking nursing home residents, helping to find placement for evacuated
             residents, and facilitating communication between nursing homes and
             community emergency entities.
             SAs focused primarily on issues related to facility compliance
             with State and Federal regulations
             Officials from the seven SAs indicated that their most important obligation
             related to emergency planning and disaster response was to continue their
             primary task of surveying nursing homes for compliance. They also
             expressed a responsibility to serve as a conduit between CMS and nursing
             homes, providing information to CMS officials and assisting facilities in
             understanding CMS payment and compliance provisions. Four of the
             seven SAs completed additional tasks as a result of the disasters that were
             related to facility compliance. For example, CMS allowed one SA to
             approve temporary waivers for host facilities to exceed their bed capacity
             to accept evacuated residents.
             SAs accepted additional responsibilities as facility needs
             arose, including tracking and assisting with placement of
             residents
             All seven SAs made efforts to assist nursing homes during disasters. For
             example, officials from four SAs tracked evacuated residents. In most
             cases, this tracking consisted of manually creating and updating
             spreadsheets. Officials in one of these States found that before the
             disaster, county emergency managers did not know of all nursing facilities
             in their area. As a solution, the SA created a facility report listing numbers
             of residents and beds as well as evacuation status. The SA routinely
             updated and distributed the report to emergency entities. SAs in three of




OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness                20
             these four States also helped find suitable host facilities.38 Further,
             officials from all SAs reported that they received and answered questions
             from nursing homes. Common questions included how to discharge
             residents to host facilities and how to obtain State and Federal
             reimbursement for evacuation costs.
             Surveyors in three States identified a need for better planning and
             coordination for returning residents to facilities after disasters. In two of
             these States, the SAs monitored returns by communicating individually
             with facility administrators and relaying the aggregate information to
             community emergency entities. In the third State, local emergency
             managers notified the SA that they did not have time to check the
             suitability of nursing homes for reentry. Instead, SA surveyors visited the
             facilities to determine whether they met standards for returning residents.
             In other cases, SAs positioned themselves as a last resort should nursing
             homes require assistance because of unexpected circumstances, such as
             transportation contracts that were not honored. State surveyors also
             staffed community shelters as part of their duties as State employees.
             All seven SAs had emergency plans, but none reported using
             the CMS emergency preparedness checklist for SAs
             Officials from the seven SAs explained that as State agencies, their
             emergency plans were integrated into emergency preparedness plans for
             State health departments or for State emergency management agencies.
             Although officials from five of the seven States reported that they were
             aware of the CMS emergency preparedness checklist for SAs, none used it
             as a planning tool. One SA official indicated that his agency did not use
             the checklist because other State entities are responsible for emergency
             planning and preparedness. An SA official from another State said that
             CMS guidance regarding disaster management should focus on clarifying
             and communicating CMS policies, rather than on emergency planning
             issues. This official indicated that payment issues (e.g., the implications to
             the home facility of evacuating residents to a host facility) and instructions
             about what kind of information is required by CMS during disasters may
             not be clear and that it is “too difficult in the middle of a crisis to figure
             out the rules.”




             38 After the disasters, two SAs indicated that they were in the process of purchasing tracking software, and one
             SA now has a system that requires nursing homes to update their resident status twice a day during
             State-declared disasters.


OEI-06-09-00270          Gaps Continue To Exist in Nursing Home Preparedness                                              21
             RECOMMENDATIONS
             Five years after the release of the 2006 OIG report highlighting problems
             with nursing home emergency planning and procedures, we identified
             many of the same gaps in nursing home preparedness and response,
             specifically with emergency plans lacking relevant information, unreliable
             transportation contracts, negative effects on residents, and lack of
             collaboration with local emergency management entities. 39 Including
             tasks from the CMS emergency preparedness checklist for health care
             facilities is not required, and we found that most plans from selected
             nursing homes lacked many of the tasks recommended in the checklist.
             Though the tasks in the checklist exceed Federal regulatory requirements
             for nursing home emergency plans, their omission could compromise
             resident health and safety and jeopardize effective nursing home response
             to disasters. To improve nursing home emergency preparedness and
             response to disasters, we recommend that:
             CMS revise Federal regulations by identifying and including in
             its regulations requirements for specific elements of
             emergency plans and training
             Federal regulations require that Medicare- and Medicaid-certified nursing
             homes have detailed written emergency plans and procedures. 40 CMS
             should take into account the six areas of concern identified in this report to
             specify elements that should be required for inclusion in nursing home
             plans. These required elements should apply to all Medicare- and
             Medicaid-certified nursing homes. Additionally, to enhance the safety and
             welfare of nursing home residents during disasters, CMS should specify
             minimum Federal standards for the frequency and extent of disaster
             response training, exercises, and drills for nursing home staff.
             CMS update the SOM to provide detailed guidance for
             surveyors assessing compliance with Federal regulations for
             nursing home emergency planning and training
             The SOM, which provides CMS’s guidance to SAs that assess nursing
             home compliance with Federal regulations, requires that surveyors
             conducting standard surveys “review” nursing home emergency plans, but
             provides no procedural guidance for how surveyors are to assess plans. 41
             CMS should develop detailed and clear guidance for use during surveys to
             ensure more effective assessment of nursing home emergency plans. CMS


             39 OIG, Nursing Home Emergency Preparedness and Response During Recent Hurricanes, OEI-06-06-00020,
             August 2006.
             40 42 CFR § 483.75(m).
             41 CMS, SOM, App. PP, Tag 517.



OEI-06-09-00270        Gaps Continue To Exist in Nursing Home Preparedness                                    22
             should also provide additional training for surveyors on emergency
             preparedness and plan assessment and standardize when surveyors should
             issue deficiency citations related to emergency planning.
             CMS promote use of the emergency preparedness checklists
             for nursing homes, State LTC ombudsman programs, and SAs
             CMS designed the emergency preparedness checklists as tools for
             effective emergency planning, yet nursing homes, State LTC ombudsman
             programs, and SAs rarely reported using the checklists as guidance. In
             some cases, officials from these entities were not even aware of the CMS
             checklists. CMS does not require nursing homes to use the checklists and
             the tasks in the checklist exceed Federal regulatory requirements for
             emergency plans. Additionally, nursing home administrators indicated
             that they receive emergency planning guidance from other sources. Still,
             we found that nursing home emergency plans were largely lacking tasks
             recommended in the CMS checklist for health care facilities, which
             provides a comprehensive index of emergency planning tasks.
             Greater use of the checklists could assist nursing homes, State LTC
             ombudsmen programs, and SAs in improving emergency planning and
             disaster management. CMS should further promote use of the emergency
             preparedness checklists, such as by making additional outreach efforts and
             partnering with AoA, the Office of the Assistant Secretary for
             Preparedness and Response (ASPR), and other emergency preparedness
             entities. Finally, in a supplemental memorandum report, we outline
             guidance that CMS can consider when revising the checklist for health
             care facilities. 42
             AoA develop model policies and procedures to protect
             resident health, safety, welfare, and rights during and after
             disasters
             AoA should collaborate with CMS, ASPR, SAs, and State LTC
             ombudsman programs to identify effective models for State and local LTC
             ombudsman programs during disasters and assist States in their
             development of policies and procedures to protect residents’ health, safety,
             welfare, and rights during and after disasters. For example, guidance
             could include potential actions by State and local LTC ombudsmen during
             and after a disaster and identify common problems experienced by
             residents to assist ombudsmen with recognizing and addressing these
             problems. Additionally, AoA should provide a framework for LTC
             ombudsmen’s contact with residents after a disaster. The framework could
             include developing protocols for ombudsmen assigned to a host facility to

             42 OIG, Supplemental Information Regarding the Centers for Medicare & Medicaid Services’ Emergency
             Preparedness Checklist for Health Care Facilities, OEI-06-09-00271, April 2012.


OEI-06-09-00270         Gaps Continue To Exist in Nursing Home Preparedness                                       23
             visit displaced residents there. AoA could also encourage State, local, and
             regional LTC ombudsman programs to develop plans that, to the extent
             possible, ensure that ombudsmen are available to residents whether the
             nursing facility shelters residents in place or is evacuated.

             AGENCY COMMENTS AND OFFICE INSPECTOR GENERAL
             RESPONSE
             We received comments on the draft report from CMS and AoA.
             CMS concurred with each recommendation.
             In response to our recommendation that CMS revise Federal regulations
             by identifying and requiring specific elements of emergency plans and
             training, CMS stated that that it will include specific guidance concerning
             emergency plans and training when it proposes long-term care regulation
             revisions.
             In response to our recommendation that CMS provide detailed guidance
             for surveyors assessing compliance with Federal regulations for
             emergency planning and training, CMS stated that it will update the SOM
             and provide additional training to States and surveyors. CMS also stated
             that it will issue a policy memorandum for SAs to alert health care
             providers of problems.
             In response to our recommendation that CMS promote use of the
             emergency preparedness checklists, CMS stated that it will work with
             nursing homes, State LTC ombudsman programs, and SAs to reiterate the
             availability of the emergency preparedness materials and encourage their
             use. CMS also stated that it would review and update the checklists, as
             appropriate.
             AoA concurred with our recommendation to develop model policies and
             procedures to protect residents during disasters. AoA stated that it is
             collaborating with CMS to update the LTC ombudsmen emergency
             planning checklist and will develop and implement dissemination and
             training strategies. Additionally, AoA stated that it is collaborating with
             ASPR to promote State LTC ombudsman program awareness and use of
             model policies.
             For the full text of CMS and AoA comments, see Appendix D. We made
             minor changes to the draft report based on technical comments.




OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness                   24
                  APPENDIX A
                  Sample Selection

                  Communities. We identified disaster-affected communities nationwide by
                  reviewing information from the Federal Emergency Management Agency
                  and State survey agencies (SA). We focused on disasters that affected
                  multiple nursing homes during 2007–2010, selecting three types of
                  disasters for this study: floods, hurricanes, and wildfires.
                  We selected at least two counties in five of the seven States. For the
                  remaining two States (Minnesota and North Dakota), we selected one
                  county in each State. We selected communities for site visits based on
                  whether the disaster affected nursing homes within the counties.
                  Table A-1 lists information about the communities and disasters associated
                  with the selected nursing homes.

  Table A-1: Community and Disaster Information for Selected Nursing Homes
                                                                                         Selected Nursing Homes
                                                                                                  (n=24)
   State        County            Population*           Disaster              Year
                                                                                         Shelter in
                                                                                                       Evacuation
                                                                                             Place
                County 1             3,053,793            Wildfire            2007                 1                 2
   CA
                County 2               407,057            Wildfire            2009                 2                 1

                County 1               109,291         Hurricane              2008                 0                 1
   LA
                County 2                 52,217        Hurricane              2008                 1                 1

   MN           County 1                 56,763             Flood             2009                 1                 1

                County 1                 64,423        Hurricane              2010                 2                 1
   NC
                County 2                 34,296        Hurricane              2010                 0                 1

   ND           County 1               143,339              Flood             2009                 0                 2

                County 1               920,232              Flood             2010                 0                 1

   TN           County 2                 26,471             Flood             2010                 1                 0

                County 3                 22,057             Flood             2010                 0                 1

                County 1             4,070,989         Hurricane              2008                 1                 1
   TX
                County 1               286,814         Hurricane              2008                 1                 1

     Total                                                                                        10                14
     Source: Office of Inspector General (OIG) analysis of nursing homes in selected counties, 2010.
     * Source: 2009 Population Estimates from the U.S. Census Bureau. Accessed at http://www.census.org on December 20,
     2010.




OEI-06-09-00270              Gaps Continue To Exist in Nursing Home Preparedness                                          25
                    Nursing Homes. We purposively selected 24 Medicare- and Medicaid-
                    certified nursing homes based on their diversity in several factors: disaster
                    response (shelter in place or evacuation), size (number of beds), ownership
                    (for-profit or nonprofit), and the Centers for Medicare & Medicaid
                    Services (CMS) 5-Star Quality of Care rating. To ensure that we
                    interviewed key personnel present during the disaster, we included only
                    nursing homes that still employed the administrator and director of nursing
                    on duty at the time of the disaster. Table A-2 lists characteristics of all
                    selected nursing homes.
    Table A-2: Selected Nursing Home Characteristics

                                         Disaster                                                                 CMS
     Facility ID                                             Size          Ownership             Chain
                                        Response                                                                 Rating

     California 1                 Shelter in place              63            Nonprofit            Yes               4
     California 2                 Shelter in place              80            Nonprofit            Yes               5
     California 3                        Evacuate             156             Nonprofit            Yes               2
     California 4                        Evacuate             149             For-profit             No              2
     California 5                        Evacuate               90            Nonprofit            Yes               4
     California 6                 Shelter in place              59            Nonprofit            Yes               4
     Louisiana 1                  Shelter in place            128             For-profit             No              4
     Louisiana 2                         Evacuate             124             Nonprofit            Yes               2
     Louisiana 3                         Evacuate             198             For-profit             No              1
     Minnesota 1                         Evacuate             195             Nonprofit              No              3
     Minnesota 2                  Shelter in place              87            For-profit           Yes               3
     North Carolina 1             Shelter in place              92            For-profit           Yes               1
     North Carolina 2             Shelter in place            122             For-profit             No              1
     North Carolina 3                    Evacuate             104             For-profit             No              3
     North Carolina 4                    Evacuate             126             For-profit           Yes               2
     North Dakota 1                      Evacuate             192             Nonprofit              No              3
     North Dakota 2                      Evacuate             109             For-profit           Yes               1
     Tennessee 1                  Shelter in place            144             For-profit             No               *
     Tennessee 2                         Evacuate             119             For-profit           Yes               3
     Tennessee 3                         Evacuate             155             For-profit             No              2
     Texas 1                      Shelter in place            100             For-profit             No              1
     Texas 2                             Evacuate             109             For-profit           Yes               1
     Texas 3                      Shelter in place              62            For-profit           Yes               4
     Texas 4                             Evacuate             105             Nonprofit              No              5
       Source: We obtained information about facility size, ownership, chain status, and location from the CMS
       Nursing Home Compare Web site. Accessed at http://Medicare.gov, March–June 2010.
       *CMS rating for this new facility was not available at the time that we selected the nursing homes.




OEI-06-09-00270               Gaps Continue To Exist in Nursing Home Preparedness                                         26
                  Interview Respondents. As part of data collection, we interviewed nursing
                  home staff from all 24 selected nursing homes; their associated local
                  emergency entities; local, regional, and State long-term care (LTC)
                  ombudsmen; and SAs. Table A-3 lists the number of interview
                  respondents affiliated with each type of entity.

  Table A-3: Number of Interview Respondents Affiliated With Each Type of Entity

                                                                                          State
   Respondent Affiliation
                                                       CA        LA       MN        NC        ND       TN       TX        Total
   Local or Regional Entity
     Nursing home                                       23       10         6       27            7    28       11          112
     Area agency on aging                                0         1        0         1           0     0         0           2
     City emergency management                           0         0        0         0           1     0         5           6
     County emergency management                         2         2        1         1           1     2         4          13
     County public health department                     3         0        3         5           4     1         0          16
     Fire department                                     0         9        2         3           0    13         0          27
     Local/regional LTC ombudsman                        6         4        3         6           1     3         3          26
     program
     Police department                                   0         1        0         1           0     0         0           2
     Other*                                              1         0        1         3           1     4         0          10
  State Entity
     State LTC ombudsman program                         1         1        1         3           1     1         1           9
     State department of health                          4         2        2         1           1     1         0          11
     State survey agency                                 2         2        3         1           3     2         5          18
     State emergency management agency                   0         0        0         1           0     0         0           1
     Other*                                              0         1        0         0           0     0         0           1
        Total                                           42       33        22       53        20       55        29         254
     Source: OIG analysis of interviews with respondents in the communities and States where selected nursing homes are located,
     2010.
     * Other includes contractors, county commissioners, attorneys, and hospital representatives.




OEI-06-09-00270               Gaps Continue To Exist in Nursing Home Preparedness                                              27
                     APPENDIX B
                     Nursing Home Deficiencies in Emergency Planning and Training

Table B-1: Nursing Homes Cited by State Survey Agencies for Deficiencies in Emergency
Planning and Training by Type of Deficiency: National and State, 2009–2010

                               Total Number of         Total Emergency          Total Emergency
 National or State             Nursing Homes       Planning Deficiencies    Training Deficiencies
                                      Surveyed      (Tags F517 and K48)      (Tags F518 and K50)

                                                       n     Percentage           n    Percentage
 National                               16,001      1,214            7.6    4,466            27.9


 State
 Alabama                                  231         23           10.0           57         24.7
 Alaska                                    15          2           13.3           4          26.7
 Arizona                                  139          7             5.0          39         28.1
 Arkansas                                 248          2             0.8          25         10.1
 California                              1,251       293           23.4       586            46.8
 Colorado                                 215         39           18.1           87         40.5
 Connecticut                              239          6             2.5          45         18.8
 Delaware                                  48          0             0.0          16         33.3
 District of Columbia                      19          5           26.3           3          15.8
 Florida                                  681         34             5.0          81         11.9
 Georgia                                  360          7             1.9          27          7.5
 Guam                                       1          1          100.0           0           0.0
 Hawaii                                    48          1             2.1          8          16.7
 Idaho                                     80          1             1.3          24         30.0
 Illinois                                 800        125           15.6       385            48.1
 Indiana                                  516         38             7.4      193            37.4
 Iowa                                     456         12             2.6      224            49.1
 Kansas                                   348          2             0.6      163            46.8
 Kentucky                                 287         12             4.2          28          9.8
 Louisiana                                287         12             4.2          23          8.0
 Maine                                    109          3             2.8          17         15.6
 Maryland                                 232         11             4.7          19          8.2
 Massachusetts                            433         11             2.5      102            23.6
 Michigan                                 431         86           20.0       164            38.1
 Minnesota                                387          2             0.5      136            35.1
 Mississippi                              206          1             0.5          22         10.7
 Missouri                                 525         29             5.5      241            45.9
 Montana                                   87          3             3.4          30         34.5
                                                                           continued on next page


OEI-06-09-00270             Gaps Continue To Exist in Nursing Home Preparedness                28
Table B-1: Nursing Homes Cited by State Survey Agencies for Deficiencies in
Emergency Planning and Training by Type of Deficiency: National and State, 2009–2010
(Continued)
                                      Total Number of               Total Emergency                       Total Emergency
 National or State                    Nursing Homes               Planning Deficiencies                 Training Deficiencies
                                             Surveyed             (Tags F517 and K48)                   (Tags F518 and K50)

                                                                           n      Percentage                      n     Percentage

 National                                         16,001               1,214                7.6              4,466                  27.9


 State
 Nebraska                                             232                   8               3.4                 79                  34.1
 Nevada                                                51                   2               3.9                 19                  37.3
 New Hampshire                                         80                   3               3.8                 28                  35.0
 New Jersey                                           362                   8               2.2                 48                  13.3
 New Mexico                                            74                   1               1.4                 26                  35.1
 New York                                             640                 20                3.1                125                  19.5
 North Carolina                                       429                   2               0.5                 54                  12.6
 North Dakota                                          87                   0               0.0                   5                  5.7
 Ohio                                                 972                122               12.6                411                  42.3
 Oklahoma                                             336                   2               0.6                 67                  19.9
 Oregon                                               138                 82               59.4                 60                  43.5
 Pennsylvania                                         718                 19                2.6                110                  15.3
 Puerto Rico                                            7                   0               0.0                   6                 85.7
 Rhode Island                                          86                   0               0.0                   6                  7.0
 South Carolina                                       186                   3               1.6                   9                  4.8
 South Dakota                                         110                   0               0.0                 32                  29.1
 Tennessee                                            330                   7               2.1                 79                  23.9
 Texas                                             1,252                  73                5.8                282                  22.5
 Utah                                                 101                   0               0.0                 30                  29.7
 Vermont                                               40                   0               0.0                   3                  7.5
 Virgin Islands                                         1                   0               0.0                   1             100.0
 Virginia                                             291                   9               3.1                 24                   8.2
 Washington                                           235                 20                8.5                 74                  31.5
 West Virginia                                        127                   0               0.0                 10                   7.9
 Wisconsin                                            398                 63               15.8                107                  26.9
 Wyoming                                               39                   2               5.1                 22                  56.4
   Source: Office of Inspector General analysis of the Centers for Medicare & Medicaid Services Online Survey, Certification, and
   Reporting data for 2009–2010.




OEI-06-09-00270                  Gaps Continue To Exist in Nursing Home Preparedness                                                  29
                                   APPENDIX C
                                   Centers for Medicare & Medicaid Services-Recommended Checklist Tasks
Table C-1: Centers for Medicare & Medicaid Services-Recommended Checklist Tasks Included in 24
Selected Nursing Homes’ Emergency Plans
                                                                                                                                         Nursing Home Plans
                                                                                                                                          With Tasks (n=24)*
 Tasks (n=70)
                                                                                                                                           M        PM        NM
 1.     Develop Emergency Plan: Gather all available information when developing the emergency plan.
        This information includes, but is not limited to:
           1a. Copies of any state and local emergency planning regulations or requirements.                                               4          1           19

           1b. Facility personnel names and contact information.                                                                          11         12           1

           1c. Contact information of local and state emergency managers.                                                                  1         17           6

           1d. A facility organization chart.                                                                                             15          0           9

           1e. Building construction and Life Safety systems information.                                                                  6         16           2

           1f. Specific information about the characteristics and needs of individuals for whom care is provided.                          9          0           15
 2.      All-Hazards Continuity of Operations (COOP) Plan: Develop a continuity of operations business plan
         using an all-hazards approach (e.g., hurricanes, floods, tornadoes, fire, bioterrorism, pandemic, etc.)
         that could potentially affect the facility directly and indirectly within the particular area of location.                        1         23           0
         Indirect hazards could affect the community but the not the facility and as a result interrupt necessary
         utilities, supplies or staffing. Determine all essential functions and critical personnel.
 3.      Collaborate with Local Emergency Management Agency: Collaborate with local emergency
                                                                                                                                           8          0           16
         management agencies to ensure the development of an effective emergency plan.
 4.     Analyze Each Hazard: Analyze the specific vulnerabilities of the facility and determine the
        following actions for each identified hazard.
           4a. Specific actions to be taken for the hazard.                                                                               22          0           2

           4b. Identified key staff responsible for executing plan.                                                                       24          0           0

           4c. Staffing requirements and defined staff responsibilities.                                                                   4         20           0
           4d. Identification and maintenance of sufficient supplies and equipment to sustain operations and
               deliver care and services for 3-10 days, based on each facility’s assessment of its hazard                                  2         17            5
               vulnerabilities.
           4e. Communication procedures to receive emergency warning/alerts, and for communication with
                                                                                                                                           4         19           1
               staff, families, individuals receiving care, before, during and after the emergency.
            4f. Designate critical staff, providing for other staff and volunteer coverage and meeting staff needs,
                                                                                                                                           1         13           10
                including transportation and sheltering critical staff members’ family.
 5.      Collaborate with Suppliers/Providers: Collaborate with suppliers and/or providers who have been
         identified as part of a community emergency plan or agreement with the health care facility to receive
         and care for individuals. A surge capability assessment should be included in the development of the
                                                                                                                                           0         15           9
         emergency plan. Similarly, evidence of a surge capacity assessment should be included if the supplier
         or provider, as part of its emergency planning, anticipates the need to make housing and sustenance
         provisions for the staff or the family of staff.
 6.      Decision Criteria for Executing Plan: Include factors to consider when deciding to evacuate or shelter
         in place. Determine who at the facility level will be in authority to make the decision to execute the plan
                                                                                                                                           3         20           1
         to evacuate or shelter in place (even if no outside evacuation order is given) and what will be the chain
         of command.
 7.      Communication Infrastructure Contingency: Establish contingencies for the facility communication
         infrastructure in the event of telephone failures (e.g., walkie-talkies, ham radios, text messaging                              17          0           7
         systems, etc.)
      *We coded plans as a match (M) if they included all parts of a task, a partial match (PM) if they included at least one part of a task (e.g., listing the
      person responsible for carrying out a task, but not describing how the task would be performed), and a nonmatch (NM) if they lacked all parts of a task.
      The highest number in each category is in bold font.
                                                                                                                                       continued on next page


            OEI-06-09-00270                     Gaps Continue To Exist in Nursing Home Preparedness                                                   30
Table C-1: Centers for Medicare & Medicaid Services-Recommended Checklist Tasks Included in 24
Selected Nursing Homes’ Emergency Plans (Continued)

                                                                                                                   Nursing Home Plans
 Tasks (n=70)                                                                                                        With Tasks (n=24)

                                                                                                                     M     PM      NM
 8. Develop Shelter in Place Plan: Due to the risks in transporting vulnerable patients and residents,
    evacuation should only be undertaken if sheltering-in-place results in greater risk. Develop an effective
    plan for sheltering-in-place, by ensuring provisions for the following are specified:
         8a. Procedures to assess whether the facility is strong enough to withstand strong winds, floods,
                                                                                                                      0      4       2
         etc.
         8b. Measures to secure the building against damage (plywood for windows, sandbags and plastic                2
                                                                                                                             0       4
             for flooding), safest areas of the facility are identified.
         8c. Procedures for collaborating with local emergency management agency, fire, police and EMS                               1
                                                                                                                      7      0
             agencies regarding the decision to shelter-in-place.
         8d. Sufficient resources are in supply for sheltering-in-place for at least 7 days, including:
                8d1. Ensuring emergency power, including back-up generators and accounts for maintaining a
                                                                                                                      0     15       9
                     supply of fuel.
                8d2. An adequate supply of potable water (recommended amounts vary by population and
                                                                                                                      0     11      13
                     location).
                8d3. A description of the amounts and types of food in supply.                                        7      7      10

                8d4. Maintaining extra pharmacy stocks of common medications.                                         5      0      19

                8d5. Maintaining extra medical supplies and equipment (e.g., oxygen, linens, vital equipment).        2      4      18

         8e. Identifying and assigning staff who are responsible for each task.                                      19      4       1
         8f. Description of hosting procedures, with details ensuring 24-hour operations for minimum of 7
                                                                                                                      0      6      18
         days.
         8g. Contract established with multiple vendors for supplies and transportation.                             13      5       6

         8h. Develop a plan for addressing emergency financial needs and providing security.                          2      8      14
 9. Develop Evacuation Plan: Develop an effective plan for evacuation, by ensuring provisions for
    the following are specified:
         9a. Identification of person responsible for implementing the facility evacuation plan (even if no
                                                                                                                     22      0       2
             outside evacuation order is given).
         9b. Multiple pre-determined evacuation locations (contract or agreement) with a “like” facility have
             been established, with suitable space, utilities, security and sanitary facilities for individuals
                                                                                                                     15      4       5
             receiving care, staff and others using the location. A back-up may be necessary if the first one is
             unable to accept evacuees.
         9c. At least one pre-determined evacuation location is 50 miles away.                                       12      0      12
         9d. Evacuation routes and alternative routes have been identified, and the proper authorities have
                                                                                                                      0     21       3
             been notified. Maps are available and specified travel time has been established.
         9e. Adequate food supply and logistical support for transporting food is described.                          0      9      15

         9f. The amount of water to be transported and logistical support is described.                               0      6      18
         9g. The logistics to transport medications is described, including ensuring their protection under the
                                                                                                                      2     17       5
             control of a registered nurse.
         9h. Procedures for protecting and transporting resident/patient medical records.                             2     19       3

         9i. The list of items to accompany residents/patients is described.                                          8      0      16
         9j. Identify how persons receiving care, their families, staff and others will be notified of the
                                                                                                                      4     18       2
              evacuation and communication methods that will be used during and after the evacuation.



                                                                                                                    continued on next page




        OEI-06-09-00270                  Gaps Continue To Exist in Nursing Home Preparedness                                  31
Table C-1: Centers for Medicare & Medicaid Services-Recommended Checklist Tasks Included in 24
Selected Nursing Homes’ Emergency Plans (Continued)
                                                                                                                                    Nursing Home Plans
                                                                                                                                      With Tasks (n=24)
 Tasks (n=70)
                                                                                                                                      M        PM        NM
9.    Develop Evacuation Plan (Continued): Develop an effective plan for evacuation, by ensuring provisions
      for the following are specified:
            9k. Identify staff responsibilities and how individuals will be cared for during evacuation, and the
                                                                                                                                       1        17           6
                back-up plan if there isn’t sufficient staff.
            9l. Procedures are described to ensure residents/patients dependent on wheelchairs and/or
                assistive devices are transported so their equipment will be protected and their personal needs
                                                                                                                                       3         5           16
                met during transit (e.g., incontinent supplies for long periods, transfer boards and other assistive
                devices).
            9m. A description of how other critical supplies and equipment will be transported is included.                            5         9           10

            9n. Determine a method to account for all individuals during and after the evacuation.                                    14         3           7

            9o. Procedures are described to ensure that staff accompany evacuating residents.                                         12         1           11

            9p. Procedures are described if a patient/resident becomes ill or dies in route.                                           1         2           21
            9q. Mental health and grief counselors are available at reception points to talk with and counsel
                                                                                                                                       1         2           21
                evacuees.
            9r. It is described whether staff family can shelter at the facility and evacuate.                                         5         5           14
10. Transportation & Other Vendors: Establish transportation arrangements that are adequate for the type
    of individuals being served. Obtain assurances from transportation vendors and other
    suppliers/contractors identified in the facility emergency plan that they have the ability to fulfill their
    commitments in case of disaster affecting an entire area (e.g., their staff, vehicles and other vital                             17         1           6
    equipment are not “overbooked,” and vehicles/equipment are kept in good operating condition and with
    ample fuel.). Ensure the right type of transportation has been obtained (e.g., ambulances, buses,
    helicopters, etc).
11. Train Transportation Vendors/Volunteers: Ensure that the vendors or volunteers who will help
    transport residents and those who receive them at shelters and other facilities are trained on the needs of
                                                                                                                                       0         0           24
    the chronic, cognitively impaired and frail population and are knowledgeable on the methods to help
    minimize transfer trauma.
12. Facility Reentry Plan: Describe who will authorize reentry to the facility after an evacuation, the
    procedures for inspecting the facility, and how it will be determined when it is safe to return to the facility
                                                                                                                                       8         2           14
    after an evacuation. The plan should also describe the appropriate considerations for return travel back
    to the facility.
13. Residents & Family Members: Determine how residents and their families/guardians will be informed of
    the evacuation, helped to pack, have their possessions protected and be kept informed during and
                                                                                                                                       1        18           5
    following the emergency, including information on where they will be/go, for how long and how they can
    contact each other.
14. Resident Identification:
           14a. Determine how residents will be identified in an evacuation; and ensure the following
                identifying information will be transferred with each resident*
                  14a1. Name.                                                                                                         13         4           7

                  14a2. Social Security Number.                                                                                        4         4           16

                  14a3. Photograph.                                                                                                    6         3           15

                  14a4. Medicaid or other health insurer number.                                                                       5         4           15

                  14a5. Date of birth, diagnosis.                                                                                      7         4           13

                  14a6. Current drug/prescription and diet regimens.                                                                   9        14           11

                  14a7. Name and contact information for next of kin/responsible person/Power of Attorney.                             5         4           15
     *OIG analysis found that 17 of the 24 selected nursing homes’ emergency plans contained the first element of this task, “Determine how residents will
     be identified in an evacuation.”
                                                                                                                                    continued on next page


           OEI-06-09-00270                    Gaps Continue To Exist in Nursing Home Preparedness                                                 32
Table C-1: Centers for Medicare & Medicaid Services-Recommended Checklist Tasks Included in 24
Selected Nursing Homes’ Emergency Plans (Continued)
                                                                                                                           Nursing Home Plans
 Tasks (n=70)                                                                                                                With Tasks (n=24)
                                                                                                                             M       PM       NM
14. Resident Identification (Continued):
         14b. Determine how this information will be secured (e.g., laminated documents, water proof
              pouch around resident’s neck, water proof wrist tag etc) and how medical records and
                                                                                                                             2         3      19
              medications will be transported so they can be matched with the resident to whom they
              belong.
15. Trained Facility Staff Members: Ensure that each facility staff member on each shift is trained to be
    knowledgeable and follow all details of the plan. Training also needs to address psychological and
    emotional aspects on caregivers, families, residents, and the community at large. Hold periodic reviews                  0        17       7
    and appropriate drills and other demonstrations with sufficient frequency to ensure new members are
    fully trained.
16. Informed Residents & Patients: Ensure residents, patients and family members are aware of
    and knowledgeable about the facility plan, including:
         16a. Families know how and when they will be notified about evacuation plans, how they can be
              helpful in an emergency (example, should they come to the facility to assist?) and                             2         1      21
              how/where they can plan to meet their loved ones.
         16b. Out-of-town family members are given a number they can call for information. Residents
              who are able to participate in their own evacuation are aware of their roles and                               1         0      23
              responsibilities in the event of a disaster.
17. Needed Provisions: [Processes for determining] if provisions need to be delivered to the facility
    residents – power, flashlights, food, water, ice, oxygen, medications – and if urgent action is needed to                1         5      18
    obtain the necessary resources and assistance.
18. Location of Evacuated Residents: [Processes for determining] the location of evacuated residents,
    document and report this information to the clearing house established by the state or partnering                        2         4      18
    agency.
19. Helping Residents in the Relocation: [Training for staff] Suggested principles of care for the
    relocated residents include: Encourage the resident to talk about expectations, anger, and/or
    disappointment; Work to develop a level of trust; Present an optimistic, favorable attitude about the
                                                                                                                             0         2      22
    relocation; Anticipate that anxiety will occur; Do not argue with the resident; Do not give orders; Do not
    take resident’s behavior personally; Use praise liberally; Include the resident in assessing problems;
    Encourage staff to introduce themselves to residents; Encourage family participation.
20. Review Emergency Plan: Complete an internal review of the emergency plan on an annual basis to
    ensure the plan reflects the most accurate and up-to-date information. Updates may be warranted
    under the following conditions: regulatory change; new hazards are identified or existing hazards                       11         0      13
    change; after tests, drills, or exercises when problems have been identified; after actual
    disasters/emergency responses; infrastructure changes; funding or budget-level changes.
21. Communication with the Long-Term Care Ombudsman Program: Prior to any disaster, discuss the
    facility’s emergency plan with a representative of the ombudsman program serving the area where the
    facility is located and provide a copy of the plan to the ombudsman program. When responding to an                       1         1      22
    emergency, notify the local ombudsman program of how, when and where residents will be sheltered so
    the program can assign representatives to visit them and provide assistance to them and their families.
22. Conduct Exercises & Drills: Conduct exercises that are designed to test individual essential
    elements, interrelated elements, or the entire plan:
         22a. Exercises or drills must be conducted at least semi-annually.                                                  7         0      17

         22b. Corrective actions should be taken on any deficiency identified.                                               8         0      16
23. Loss of Resident’s Personal Effects: Establish a process for the emergency management agency
    representative (FEMA or other agency) to visit the facility to which residents have been evacuated, so                   0         0      24
    residents can report loss of personal effects.
   Source: Office of Inspector General analysis of 24 selected nursing homes’ emergency plans’ inclusion of CMS-recommended emergency
   preparedness planning tasks in 2010, using CMS, “Survey & Certification: Emergency Preparedness Checklist Recommended Tool for Effective
   Health Care Facility Planning.” Accessed at http://www.cms.gov on February 5, 2010.




         OEI-06-09-00270                  Gaps Continue To Exist in Nursing Home Preparedness                                           33
                                APPENDIX D
                                Agency Comments: Centers for Medicare & Medicaid Services




   (-l
     J"a. .. K:t:t .(



                             DEPARTMENT OF HEALTH. HUMAN SERVICES
                                                                                                        Cen.... lor r..4edIcM. & Meo.:ald SeMen
                                                                                                        0t!Ice 01 S""~ ~ _
                                                                                                          _   ~A"'''



                                                                                                        200 It\depend"""l>""_lIVe SW
                                                                                                        WashlnglM. DC 2020'




                        DATE:               JAN 0 5 201l
                        TO: 	             Daniel R. Levinson 

                                          Inspector Oeneral 

                                                               /S/
                        FROM :        -   M~      TlNenner 

                                          ActinA Adm~istralor 


                        SUBJECT: 	 Office of Inspector Gcnerd.l (010) Draft Report: "Oaps Continue To Exist In
                                   Nursing Horne Emergency Preparedness and Response During Disasters: 2007 ­
                                   2010 (OEI-06-09·00270)"

                        Thank you for the: opportunity to review and comment on the subject 010 dralt report. OIG's
                        study focused on determining compliance with Federal regulations and compan.'d emergency
                        plans tOT selected nursing homes against the Centers for Medicare &. Medicaid Services (eMS)
                        checklist for health care facilities. Inforrnaiion was also collected about the roles of Stale long­
                        term care (LTC) ombudsman programs and State Agencies (SAs) in assisting musing homes
                        during these disasters. During this study, OIU's findings were:

                           • 	 In 2009-2010, 92 percent of nursing homes met Federal regulations for emergency pllL'ls
                               and n percent for emergency tmining, slightly less than 5 years earlier.
                           • 	 On average, selecll.'t:j nursing bomes' emergency plans included about half of the CMS­
                               recommended checklist tasks, and none included all.
                           • 	 Administrators from 17 of the 24 selected n.ursing homes reported subsiantial challenges
                               in responding to disasters.
                           • 	 LTC ombudsmen ""'ere often unable to foous on nursing horne residents during, disasters.
                           • 	 State Agencies completed tasks related to nursing home compliance and addressed ad hoc
                               facility needs.

                        In its report. 0[0 made four recommendations to the Secretary of Heatth and HUman Services
                        Md the Administrator of CMS. In making these recommendations. OIG took into consideration
                        there are no requirements for use of eMS Emergency Preparedness chf.!Cklists as well as the
                        continued need to respond to disasters to protect resident health. safety. welfare. and rights
                        during Md after disasters. Our response to these ....'Cornmendations is slated below.

                        OIG Recommendation

                        e MS revise Federal regulations by identifying and including in its regulations requirements for
                        specific elcment~ of emergency plans and training.




OEI-06-09-00270                             Gaps Continue To Exist in Nursing Home Preparedness                                                   34
             Centers for Medicare & Medicaid Services (continued)




OEI-06-09-00270     Gaps Continue To Exist in Nursing Home Preparedness   35
             Centers for Medicare & Medicaid Services (continued)




OEI-06-09-00270     Gaps Continue To Exist in Nursing Home Preparedness   36
             Agency Comments: Administration on Aging




OEI-06-09-00270     Gaps Continue To Exist in Nursing Home Preparedness   37
             Administration on Aging (continued)




OEI-06-09-00270     Gaps Continue To Exist in Nursing Home Preparedness   38
               Administration on Aging (continued)




         Pa~~ 3
         AoA Response
         Om-06-09-00270


         In its support orStlites' emergency prcpllfcdl1C$' activities, AoA provides. runo.ng other things:
              • 	 An enlC1llcocy preplltedness webpage on the AoA websile: 

                  lm :llwww . v, AoARoot/Pg;parednessli                    . and 

              • 	 Emergeocy preparedness planning resources for state plan 00 aging development as part
                  of the AnA-supported TAse Planning Zone ofthe Jl.atiunal Association of States United
                  for Aging and Disabilities (NASUAlJ) ~
                  httnJtwy.. ",lli!$Uild ,9n :/tllSc/cmmC!wy   llIJoomIom ('S5IlU1CC'§,htm I.

         The Administration on Aging would Itgain like ro thank the OlG -jor their work in conducting thb
         review. If we Clltl be of further wisumce. please let me know.




                                                               /S/
                                                                yG~




OEI-06-09-00270             Gaps Continue To Exist in Nursing Home Preparedness                               39
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Kevin K. Golladay,
             Regional Inspector General for Evaluation and Inspections in the Dallas
             regional office; A. Blaine Collins, Deputy Regional Inspector General;
             and Ruth Ann Dorrill, Deputy Regional Inspector General.
             Deborah Cosimo served as the project leader, and Petra Johansson was the
             lead analyst. Other principal Office of Evaluation and Inspections staff
             from the Dallas regional office who contributed to the report include Leah
             Bostick, Nathan Dong, Ben Gaddis, Anthony Guerrero-Soto, and Chet
             Yean; central office staff who contributed include Jennifer Jones, Kevin
             Farber, and Sandy Khoury.




OEI-06-09-00270      Gaps Continue To Exist in Nursing Home Preparedness               40
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
